                                                                               Issue Date
                                                                                        8/17/2010
                                                                               Audit Report Number
                                                                                            2010-FO-0004




TO:            Janie L. Payne, General Deputy Assistant Secretary and Chief Human Capital
                  Officer, A
               Jemine A. Bryon, Chief Procurement Officer, N
               Jerry E. Williams, Chief Information Officer, Q

                   //s//
FROM:          Thomas R. McEnanly, Director, Financial Audits Division, GAF


SUBJECT: Review of HUD’s Property and Equipment.


                                            HIGHLIGHTS

    What We Audited and Why

                 We performed an audit of the U.S. Department of Housing and Urban
                 Development’s (HUD) property and equipment. We performed this audit as a
                 result of recurring findings relating to HUD’s property and equipment reported in
                 the fiscal years 2004 through 2008 management letters1. Our objective was to
                 determine whether HUD properly recorded and tracked the acquisition and
                 disposal of its capitalized and accountable property and equipment.


    What We Found

                 Not all purchases of accountable equipment were recorded in HUD’s inventory
                 management system, the Facilities Integrated Resource Management System
                 (FIRMS). There were 683 pieces of unrecorded equipment found during HUD’s
                 2009 annual physical inventory, which had not been reported to the Office of

1
 A management letter is used to communicate deficiencies and other matters noted during the audits that have an
effect on the financial statements that is less than material but more than inconsequential.


                                                        1
                 Facilities and Management Services2 (OFMS) for barcoding and recording in
                 FIRMS when it was acquired. When equipment is not barcoded and recorded, its
                 location cannot be verified, and it becomes more susceptible to theft.
                 Additionally, HUD lacked sufficient purchase documentation for accountable
                 equipment in FIRMS. From a sample of 29 acquisitions, HUD was only able to
                 provide documentation for 13. When no documentation is available, the
                 authorization of the acquisition cannot be verified, and the purchase cost cannot
                 be determined.

                 HUD properly tracked and recorded the disposal of equipment that had been
                 recorded in FIRMS. Sufficient documentation was provided for each of the
                 sampled 30 pieces of equipment that were disposed of during 2009. HUD also
                 properly recorded and tracked its capitalized equipment.

                 FIRMS is not in compliance with the Joint Financial Management Improvement
                 Program requirements for property management systems. It does not distinguish
                 between capitalized and expensed equipment, nor does it interface with other
                 HUD systems.


    What We Recommend


                 We recommend that the Deputy Assistant Secretary of the Office of the Chief
                 Human Capital Officer (1) work with the Office of the Chief Information Officer
                 to develop and implement a system which would allow OFMS to identify when
                 equipment is purchased; (2) update and reissue the standard operating procedures
                 for reporting the purchases and lease (when applicable) of equipment and
                 implement a set of standard operating procedures for users of purchase cards,
                 including procedures for but not limited to notifying OFMS of the purchase and
                 delivery/receipt of accountable and sensitive equipment, so that the items can be
                 recorded and barcoded by OFMS; (3) coordinate with the Office of the Chief
                 Financial Officer, Office of the Chief Information Officer, and Office of the Chief
                 Procurement Officer to develop and implement system interfaces, including but
                 not limited to interfaces between FIRMS and the General Ledger and the
                 acquisition system; and (4) develop and implement a process that can distinguish
                 between capitalized and expensed equipment in FIRMS.

                 We further recommend that the Chief Procurement Officer and Chief Information
                 Officer work with OFMS to ensure that their employees are properly trained in
                 the procedures for identifying which equipment needs to be reported and are
                 aware of the requirement to report the purchase and in some instances, the lease
                 of equipment to OFMS.

2
 HUD’s Office of Administration, now the Office of the Chief Human Capital Office, is undergoing reorganization.
As part of the reorganization the Office of Administrative and Management Services was renamed the Office of
Facilities and Management Services.


                                                       2
           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided our results to the Chief Human Capital Officer, Chief Information
           Officer, and Chief Procurement Officer during the audit. We also provided our
           discussion draft audit report to the Chief Human Capital Officer, Chief
           Information Officer, Chief Procurement Officer, and HUD staff during the audit.
           We held an exit conference with HUD staff on August 3, 2010.

           We asked the Chief Human Capital Officer, Chief Information Officer, and Chief
           Procurement Officer to provide comments on our discussion draft report by
           August 11, 2010. The Office of the Chief Human Capital Officer coordinated
           HUD’s response and provided written comments, dated August 10, 2010, that
           generally agreed with our findings and recommendations. The complete text of
           the auditee’s response, along with our evaluation of that response, can be found in
           appendix A of this report.




                                            3
                           TABLE OF CONTENTS

Background and Objective                                                  5

Results of Audit
      Finding 1: HUD Lacked Control Over the Acquisition of Accountable   7
                 Equipment

      Finding 2: HUD’s Property Management System Had Weaknesses          11

Scope and Methodology                                                     13

Internal Controls                                                         14

Appendixes
   A. Auditee Comments and OIG’s Evaluation                               16




                                           4
                       BACKGROUND AND OBJECTIVE


The U.S. Department of Housing and Urban Development’s (HUD) financial management
systems indicate that HUD has $256 million in property, plant, and equipment (PP&E). Federal
financial management guidance on property management requirements defines PP&E as
consisting of tangible assets, including land, that have an estimated useful life of 2 years or more;
are not intended for sale in the ordinary course of operations; and have been acquired or
constructed with the intention of being used or being available for use by the entity. In the
Federal Government, PP&E includes but is not limited to office equipment, computer
hardware/software, buildings, land, museum collections, and national defense PP&E. HUD’s
polices provide for capitalized PP&E and noncapitalized PP&E or accountable equipment. HUD
defines capitalized PP&E as equipment that has a useful life of greater than 1 year, retains its
identity, and has an acquisition cost of $25,000 or greater for a single item or $100,000 or greater
for a group purchase. Accountable equipment is equipment which must be inventoried and
tracked by HUD. Accountable equipment includes capitalized equipment, noncapitalized
equipment with a value of $1,000 or above, and sensitive items that require special control and
accountability due to an unusual rate of loss, theft, misuse, or security considerations. Sensitive
equipment is usually easily portable, expensive new technology, and/or adaptable to personal
use.

The Office of Facilities and Management Services (OFMS) is responsible for Departmental
policy and procedures related to PP&E, coordinating the physical inventory, maintaining
accountability through the inventory and reconciliation process, and reporting excess property to
the General Services Administration (GSA). OFMS uses the Facilities Integrated Resource
Management System (FIRMS) to monitor and track HUD’s PP&E. HUD’s accountable
equipment is given a barcode and recorded in FIRMS by OFMS at acquisition for monitoring
and tracking purposes. OFMS coordinates a physical inventory on an annual basis. During the
physical inventory, handheld scanners are used to read the barcodes attached to each piece of
equipment to verify its existence and use. OFMS also looks for accountable equipment that was
not barcoded and recorded at acquisition during the inventory process. Items that are found
during the inventory are given a barcode and recorded in FIRMS. FIRMS is also used to
generate reports on capitalized PP&E and depreciation for financial reporting as well as surveys
and reports on personal property for use by HUD and the GSA.

Public Law 107-217, also known as the Property Act, revised, codified, and enacted without
substantive change certain general and permanent laws, related to public buildings, property, and
works, as Title 40, United States Code, “Public Buildings, Properties, and Works.” Title 40
requires executive agencies to (1) maintain adequate inventory controls and accountability
systems for property under its control, (2) continuously survey property under its control to
identify excess property, and (3) promptly report excess property to the Administrator of General
Services. In addition, each executive agency must submit a report on personal property
containing (1) the acquisition cost of the property, (2) the recipient of the property, and (3) other
information the Administrator may require.



                                                  5
The Joint Financial Management Improvement Program (JFMIP) is a joint undertaking of the
U.S. Department of the Treasury, the Government Accountability Office (GAO), the Office of
Management and Budget, and the Office of Personnel Management, working in cooperation with
other agencies to improve financial management practices in the Government. The Program was
given statutory authorization in the Budget and Accounting Procedures Act of 1950 (31 U.S.C.
65 as amended). In December 2004, JFMIP was renamed the Financial Systems Integration
Office (FSIO). One of FSIO’s main responsibilities was core financial systems requirements
development, testing, and product certification. On March 16, 2010, OMB announced that FSIO
would be dissolved, effective March 31, 2010, after the release of a draft core financial system
requirement document. The JFMIP/FSIO documents will be maintained on the CFO Council’s
web site and serve as advisory requirements for acquisition purposes. The cover pages of the
system requirement documents retained the JFMIP name and numbering scheme and continue to
be referred to as JFMIP documents.

GAO issued report GAO-04-520R, entitled, “Department of Housing and Urban Development:
Lack of Accountability for Computer Equipment Leaves These Assets Vulnerable to Loss or
Misappropriation,” on April 23, 2004. GAO found that HUD did not have adequate internal
controls to maintain accountability over its computer equipment, consistently record the purchase
of computer equipment, or perform regular inventories.

HUD’s Office of Inspector General’s (OIG) Financial Audit Division has been performing
reviews of HUD’s property and equipment since 2004 and determined that these findings apply
to all of HUD’s property and equipment, not just the computer equipment. As a result, OIG
issued findings and recommendations regarding weaknesses in the internal control over HUD’s
property and equipment in the fiscal years 2004 through 2008 management letters.

The objective of this audit was to determine whether HUD properly recorded the acquisition and
disposal of its capitalized and accountable property and equipment.




                                                6
                                 RESULTS OF AUDIT

Finding 1: HUD Lacked Control Over the Acquisition of Accountable
           Equipment
Not all accountable and sensitive equipment acquired by HUD was recorded in HUD’s property
management system, FIRMS. This problem occurred because HUD staff lacked the knowledge of
the requirement and procedures to report acquisitions of equipment to the Office of Facilities and
Management Services (OFMS). As a result, HUD had no assurance that its accountable equipment
had been recorded, leaving it vulnerable to loss and misappropriation.



  HUD Employees Failed To
  Follow Procedures for
  Reporting Accountable
  Equipment

               We reviewed the results of HUD’s calendar year 2009 physical inventory. There
               were 683 pieces of previously unrecorded accountable equipment discovered
               during the inventory process. These items were not reported to OFMS in
               accordance with HUD Handbook 2200.1, chapter 9, which states that other HUD
               offices and employees are responsible for informing OFMS about the
               procurement of accountable property. Therefore, these items had not been
               barcoded or recorded in FIRMS. HUD cannot maintain adequate inventory
               controls over property under its control as required by U.S.C. Title 40, Subtitle I,
               Chapter 5 when the office responsible for recording and monitoring HUD’s
               property and equipment is unaware of acquisitions.

               From interviews with staff from the program offices involved in the acquisition of
               equipment, we determined that there was a general lack of awareness of the
               requirement to report and procedures for reporting the purchase of accountable
               equipment to OFMS. This condition could lead to accountable equipment going
               unrecorded and significantly increase the risk of loss or misappropriation.

 HUD Lacked Documentation
 for the Acquisition of
 Accountable Equipment

               We requested the purchase documentation for a statistical sample of 29 of the
               1,140 pieces of equipment acquired between October 1, 2008, and March 31,
               2009. HUD was unable to provide adequate documentation, including the
               purchase authorization, purchase order, delivery receipt, etc., for 16 of the 29



                                                 7
           items. The total cost of nine of these items was estimated at $7,926. Purchase
           costs had not been estimated for the remaining seven items at the time of our
           review. All 16 of these items were accountable equipment, which had been found
           during the 2008 physical inventory. Additionally, during our review of the 2009
           inventory results, we found that no cost information had been entered into FIRMS
           for 582 of the 683 found items. We were informed by OFMS that when
           equipment is found during the physical inventory, typically, there is no purchase
           documentation available. HUD’s current inventory procedures state that while
           OFMS is responsible for maintaining an accurate account of HUD-owned
           equipment, it must rely on the Office of the Chief Procurement Officer, Office of
           the Chief Information Officer, and purchase card users for necessary information
           on acquisitions and disposals.

           Data such as the acquisition date and cost must be estimated for equipment with no
           purchase documentation, leading to unreliable data. The data in FIRMS are used by
           HUD to identify needed and surplus equipment and to generate survey reports for
           GSA, which are to include the cost of the equipment. Unreliable data increase the
           risk of error and omission in these reports.


HUD’s Handbook and
Standard Operating Procedures
Were Out of Date

           We reviewed HUD Handbook 2200.1, chapter 9, Personal Property Management,
           as well as the standard operating procedures for inventory. Both the handbook
           and standard operating procedures contain references to systems no longer in use
           and offices no longer in existence. Out-of-date references can lead to confusion,
           especially among new employees or those taking over new responsibilities.


HUD Properly Recorded
Capitalized Equipment and the
Disposal of All Equipment

           We found no evidence that the acquisition of capitalized equipment was
           unreported. Of the 683 pieces of equipment found during the 2009 physical
           inventory, none met the criteria of capitalized equipment. Additionally, none of
           the 16 acquisitions between October 1, 2008, and March 31, 2009, that were
           found during the 2008 physical inventory were capitalized equipment.

           HUD properly recorded and maintained documentation for the disposal of
           equipment recorded in FIRMS. We reviewed a sample of 30 of the 2,040 pieces
           of equipment that were disposed of between October 1, 2008, and March 31,
           2009. HUD was able to provide adequate documentation, the Standard Form-120,




                                            8
             Report of Excess Personal Property, which lists the item number and description
             of the equipment being disposed of, for each item in our sample.


Conclusion

             HUD lacked control over its accountable equipment. HUD staff lacked an
             understanding of the requirement and procedures for reporting the acquisition of
             accountable equipment to OFMS. When OFMS is unaware of the acquisition of
             accountable equipment, the equipment does not get barcoded and recorded in
             FIRMS, increasing the risk of loss and misappropriation. This problem did not
             extend to acquisitions of capitalized equipment. Further, once accountable
             equipment had been barcoded and recorded, it was tracked, and disposals of
             equipment in FIRMS were properly recorded.


Recommendations


             We recommend that the General Deputy Assistant Secretary/Chief Human Capital
             Officer

             1A. Work with the Office of the Chief Information Officer to develop and
                 implement a system that would allow OFMS to identify when equipment is
                 purchased.

             1B. Update and reissue the standard operating procedures and HUD handbooks
                 for reporting the purchases and lease (when applicable) of equipment and
                 implement a set of standard operating procedures for users of purchase cards,
                 including procedures for but not limited to notifying OFMS of the purchase
                 and delivery/receipt of accountable and sensitive equipment, so that the items
                 can be recorded and barcoded by OFMS.

             We recommend that the Chief Information Officer

             1C. Work with OFMS to ensure that Office of the Chief Information Officer
                 employees involved in the acquisition of equipment are aware that the
                 purchase and in some cases, the lease of equipment must be reported and are
                 properly trained in the procedures for identifying and reporting accountable
                 equipment.

             We recommend that the Chief Procurement Officer




                                              9
1D. Work with OFMS to ensure that Office of the Chief Procurement Officer
    employees involved in the acquisition of equipment are aware that the
    purchase and in some cases, the lease of equipment must be reported and are
    properly trained in the procedures for identifying and reporting accountable
    equipment.




                               10
Finding 2: HUD’s Property Management System Had Weaknesses
FIRMS is not fully compliant with the Joint Financial Management Improvement Program (JFMIP)
requirements for property management systems. Specifically, FIRMS does not differentiate
between capitalized and expensed (noncapitalized) equipment, nor does it interface with other HUD
systems. Noncompliance with the JFMIP requirements for property management systems increases
the risks of errors and omissions in reports generated by FIRMS.


 FIRMS Is Not Fully Compliant
 With JFMIP Requirements for
 Property Management Systems

              In conflict with the JFMIP requirements for property management systems,
              FIRMS does not distinguish between capitalized and expensed equipment, nor
              does it interface with any other HUD system. The lack of a way to distinguish
              between capitalized and expensed equipment in FIRMS creates the need for users
              to manually determine which category a piece of equipment falls into, increasing
              the risk of errors and omissions in HUD’s financial statements. The lack of
              interfaces between FIRMS, HUD’s core financial system, and HUD’s acquisition
              systems creates the need for manual reconciliations among the systems,
              increasing the risk of errors and omissions. An interface between FIRMS and
              HUD’s acquisition system would also help eliminate the lack of notification that
              occurs when accountable equipment is acquired (see finding 1).


 Conclusion

              Absent a mechanism for distinguishing between capitalized and expensed
              equipment and interfaces with other HUD systems, FIRMS is not fully compliant
              with the JFMIP requirements for property management systems. Bringing its
              property management system into compliance with the JFMIP requirements will
              improve HUD’s internal controls over its property and equipment.



 Recommendations

              We recommend that the General Deputy Assistant Secretary/Chief Human Capital
              Officer

              2A. Coordinate with the Office of the Chief Financial Officer, Office of the Chief
                  Information Officer, and Office of the Chief Procurement Officer to develop



                                               11
    and implement system interfaces, including but not limited to interfaces
    between FIRMS and the core financial system and the acquisition system.

2B. Develop and implement a process that can distinguish between capitalized
    and expensed equipment in the property management system.




                               12
                        SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed applicable laws and regulations, HUD handbooks,
standard operating procedures, and inventory records. We also interviewed HUD staff involved
in the acquisition and inventory processes. Our audit generally covered the period October 1,
2008, through May 1, 2010.

To achieve our objective we relied in part on computer processed data from the Department’s
property management system. Although we did not perform a detailed assessment of the
reliability of the data, we did perform a minimal level of testing and found the data to be
adequate for our purposes.

We requested the supporting documentation for a statistical sample of 29 of the 1,140 pieces of
equipment acquired and a sample of 30 of the 2,030 pieces of equipment disposed of by HUD
from October 1, 2008, through March 31, 2009. Supporting documentation for acquisitions
included purchase authorizations, forms HUD-718 (Reservation of Funds), and delivery receipts.
Supporting documentation for the disposal of equipment included Standard Form-120, Report of
Excess Personal Property. The samples were selected using a confidence level of 90 percent, a
precision level of 10 percent, and an expected error level of 10 percent using the computer
assisted audit tool (CAATS) software Audit Control Language (ACL).

We reviewed the results of the 2009 physical inventory. We extracted the 458 items that could
be identified as information technology equipment using the CAATs tool from the list of 683
items found during the inventory and selected a statistical sample of 20. We coordinated with
the Office of the Chief Information Officer to determine that these items were the property of
HUD and were not owned by HUD’s information technology contractor. The sample was
selected using ACL with a confidence level of 90, a precision level of 5 percent, and an expected
error rate of 1 percent.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               13
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following controls are achieved:

       Program operations,
       Relevance and reliability of information,
       Compliance with applicable laws and regulations, and
       Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined that the following internal controls were relevant to our audit
              objective:

                      Up-to-date written policies and procedures,
                      Safeguarding resources,
                      Compliance with laws and regulations, and
                      Compliance with Federal system requirements.


              We assessed the relevant controls identified above.

              A deficiency in internal control exists when the design or operation of a control does
              not allow management or employees, in the normal course of performing their
              assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
              impairments to effectiveness or efficiency of operations, (2) misstatements in
              financial or performance information, or (3) violations of laws and regulations on a
              timely basis.

 Significant Deficiency

              Based on our review, we believe that the following items are significant deficiencies:

                      HUD lacked up-to-date policies and procedures for reporting the acquisition
                      of equipment to OFMS. There was also a general lack of awareness of the



                                                14
requirement and procedures for reporting acquisitions to OFMS (see finding
1).

FIRMS is not fully compliant with the JFMIP requirements for property
management systems (see finding 2).




                        15
                        APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation      Auditee Comments




Comment 1




                            16
Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 1




Comment 1




                         17
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 3




                         18
OIG Evaluation of Auditee Comments

Comment 1   We appreciate the Department’s cooperation during the audit and recognize their
            efforts to quickly address the findings and recommendations noted in our report.

Comment 2   OFMS provided us with copies of the updated standard operating procedures at
            the exit conference on August 3, 2010. We have not performed an evaluation of
            the updated standard operating procedures. We believe the establishment of the
            working groups will improve interoffice communications and contribute to
            resolving the findings noted in our report.

Comment 3   HUD provided us with evidence that the functionality to distinguish between
            capitalized and non-capitalized equipment has been added to FIRMS. We
            recognize HUD’s timely efforts in addressing this finding and recommendation.
            We will evaluate the software changes in the audit resolution process.




                                            19
